APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the Supreme Court State of
North Dakota
(May 16, 2019). . . . . . . . . . . . . . . . App. 1
Appendix B Judgment in the Supreme Court State
of North Dakota
(June 7, 2019) . . . . . . . . . . . . . . . App. 16
Appendix C Judgment in the District Court North
Central Judicial District, State of
North Dakota, County of Ward
(July 20, 2018) . . . . . . . . . . . . . . App. 18
Appendix D Order in the District Court North
Central Judicial District, State of
North Dakota, County of Ward
(May 29, 2018). . . . . . . . . . . . . . . App. 39
Appendix E Order in the District Court North
Central Judicial District, State of
North Dakota, County of Ward
(December 14, 2017) . . . . . . . . . . App. 49
Appendix F Notice of Trial in the District Court
North Central Judicial District, State
of North Dakota, County of Ward
(January 12, 2018) . . . . . . . . . . . App. 56
Appendix G Complaint in the District Court North
Central Judicial District, State of
North Dakota, County of Ward
(September 7, 2016) . . . . . . . . . . App. 58

ii
Appendix H Answer and Counterclaim in the
District Court North Central Judicial
District, State of North Dakota,
County of Ward
(October 25, 2016) . . . . . . . . . . . . App. 64
Appendix I Reply to Counterclaim in the District
Court North Central Judicial District,
State of North Dakota, County of
Ward
(November 9, 2016). . . . . . . . . . . App. 72

App. 1

APPENDIX A
Filed 5/16/19 by Clerk of Supreme Court
IN THE SUPREME COURT
STATE OF NORTH DAKOTA
2019 ND
No. 20180321
[Filed May 16, 2019]
_________________________________________
Montana-Dakota Utilities Co., a Division
of MDU Resources Group, Inc., n/k/a
Montana-Dakota Utilities Co., a
Subsidiary of MDU Resources Group, Inc.,
Plaintiff, Appellant, and
Cross-Appellee

)
)
)
)
)
)
)
v.
)
)
Lavern Behm,
)
Defendant, Appellee, and
)
Cross-Appellant
)
_________________________________________ )
Appeal from the District Court of Ward County,
North Central Judicial District, the Honorable Gary H.
Lee, Judge.
REVERSED AND REMANDED.
Opinion of the Court by Tufte, Justice.

App. 2
Anthony J. Ford (argued) and Malcolm H. Brown
(appeared), Bismarck, N.D., for plaintiff, appellant, and
cross-appellee.
Lynn M. Boughey, Mandan, N.D., for defendant,
appellee, and cross-appellant.
Tufte, Justice.
[¶1] Montana-Dakota Utilities Co. (“MDU”) appeals,
and Lavern Behm cross-appeals, from a judgment
dismissing MDU’s eminent domain action. Because the
district court misapplied North Dakota law in
concluding a taking was not necessary for a public use,
we reverse and remand for trial on eminent domain
damages to be awarded to Behm.
I
[¶2] MDU brought an eminent domain action under
N.D.C.C. ch. 32-15 to acquire an easement across
Behm’s property for a 3,000-foot natural gas pipeline to
service a Burlington Northern Santa Fe (“BNSF”)
railroad switch. The railroad switch must be heated to
keep it operable during winter months. The switch is
currently heated using propane from tanks that are
serviced and refilled by truck. Winter weather
occasionally prevents service trucks from accessing the
tanks to refill the propane. BNSF requested service
from MDU by gas pipeline, believing that natural gas
by pipeline would increase reliability and decrease the
cost associated with heating the switch. MDU claimed
that other routes for the pipeline would be too
expensive or might in the future require modification
or removal of the pipeline.

App. 3
[¶3] The district court bifurcated the proceedings
between necessity and damages. Following a bench
trial, the district court concluded that the “proposed
pipeline is . . . a use authorized by Section 32-15-02,
NDCC,” but that a taking of Behm’s property was not
necessary for the public use under N.D.C.C. § 32-15-05.
Relying on an 1883 California case for the proposition
that “necessity cannot mean mere convenience,” the
court explained:
MDU’s proposal is to place a 3000 foot
pipeline beneath Lavern Behm’s property for the
benefit of a single user, Burlington Northern
Santa Fe. While it is certainly not subject to
dispute that maintaining railway switches is a
necessity to the safe operations of the railroad,
the construction of this pipeline is not necessary
for this purpose. The current switch has been,
and can continue to be maintained through the
use of propane. The proposed pipeline serves
only the convenience of a single user, Burlington
Northern Santa Fe, while imposing a permanent
restriction on Lavern Behm’s use of his private
property.
The location of the proposed pipeline further
stretches the meaning of necessity to mean mere
convenience to MDU. That convenience is not
even a present convenience, but one of a future,
highly speculative convenience.
....

App. 4
The proposed taking [of] Lavern Behm’s
property for the purpose of this pipeline is thus
premised on a project to benefit a single user,
Burlington Northern Santa Fe. It is to be placed
on Lavern Behm’s property, a mere 5 feet from
the existing 33 foot section line right [of way].
That placement is deemed necessary by MDU
based on the speculative fear of a future event
which may never occur, and even if it does, may
not necessitate the repair or replacement of the
pipeline. The necessity proposed by MDU is
nothing more than its own mere convenience.
Contrasted to this are Lavern Behm’s rights
to own his property and to farm or otherwise
develop it as he sees fit, without the burden of
this easement. The burden on Lavern Behm is
immediate and permanent as opposed to the
uncertain and speculative necessity argued by
MDU.
The Court therefore finds that the proposed
taking and pipeline route is not compatible with
the greatest public benefit when weighed
against the immediate and permanent private
injury to Lavern Behm.
The court further concluded that “[t]his one-sided
analysis by MDU, resolving all uncertainties and
speculations in its favor, and without consideration of
Lavern Behm’s rights of ownership is arbitrary and
capricious.”

App. 5
II
[¶4] MDU argues the district court’s ruling that the
proposed taking was not necessary contradicts North
Dakota law.
[¶5] In Brandt v. City of Fargo, 2018 ND 26, ¶ 11, 905
N.W.2d 764, we recently restated the standard for a
court’s review of questions of public necessity:
Under N.D.C.C. § 32-15-05(2), “the legislature
has entrusted the right to review a
determination of the question of necessity in an
eminent domain action to the judicial branch of
government.” Oakes Mun. Airport Auth. v.
Wiese, 265 N.W.2d 697, 699 (N.D. 1978); see also
KEM Elec. Coop., Inc., v. Materi, 247 N.W.2d
668, 670 (N.D. 1976); Otter Tail Power Co. v.
Malme, 92 N.W.2d 514, 521 (N.D. 1958); Cty. of
Pembina v. Nord, 78 N.D. 473, 477, 49 N.W.2d
665, 667 (1951). In Wiese, 265 N.W.2d. at 700
(citations omitted), this Court clarified the
court’s role in determining public necessity:
To clarify the court’s role in the
determination of the question of public
necessity, we emphasize that the
determination of a condemning authority to
exercise the power of eminent domain for an
authorized public use is solely a legislative or
political question which is not subject to
judicial review. . . . The court’s review of
public necessity is limited to the question of
whether the taking of the particular property
sought to be condemned is reasonably

App. 6
suitable and usable for the authorized public
use. Much latitude is given to the
condemning authority to determine the
location and the extent of the property to be
acquired, and a taking is not objectionable
merely because some other location might
have been made or some other property
obtained that would have been as suitable for
the purpose. In the absence of bad faith,
gross abuse of discretion, or fraud by the
condemning authority in its determination
that the property sought is necessary for the
authorized use and is pursuant to specific
statutory authority, such determination
should not be disturbed by the courts.
[¶6] Behm’s primary issue in his cross-appeal is that
this Court has misinterpreted our earlier eminent
domain case law since the Wiese decision was rendered
in 1978. According to Behm, the problem was
exacerbated by dicta in Cent. Power Elec. Coop., Inc. v.
C-K, Inc., 512 N.W.2d 711, 714 n.2 (N.D. 1994), where
this Court said in the course of dismissing for lack of
jurisdiction, “[w]hen contested, necessity is generally
found unless the condemnor acted arbitrarily,
capriciously, in bad faith, or fraudulently.” Behm
argues earlier cases such as KEM Elec. Coop., Inc. v.
Materi, 247 N.W.2d 668 (N.D. 1976); Otter Tail Power
Co. v. Malme, 92 N.W.2d 514 (N.D. 1958); Bd. of Educ.
of City of Minot v. Park Dist., 70 N.W.2d 899 (N.D.
1955); and N. Pac. Ry. Co. v. Boynton, 17 N.D. 203, 115
N.W. 679 (1908), stand for the proposition that the
limited standard of review for bad faith, gross abuse of
discretion, or fraud committed by the condemnor

App. 7
applies only to the extent of a proposed taking and not
to the necessity of the taking. Behm urges that we
adopt an expanded judicial review of the necessity of
taking so condemnors cannot “use any presumption or
standard of proof to [countenance] a taking that is not
first fully justified as necessary and for a proper public
use.” To the extent he is not simply misreading our
cases, Behm has not provided persuasive reasons for us
to depart from the reasoning in more than 40 years of
our precedent.
A
[¶7] Section 32-15-05(1), N.D.C.C., requires that before
property can be taken from a landowner, it must
appear “[t]hat the use to which it is to be applied is a
use authorized by law.” MDU argues the district court
correctly ruled that its proposed taking is for a public
use authorized by law. Behm contends the district
court did not find that the proposed taking was for a
public use authorized by law, but instead that the
taking was for the mere convenience of a single user,
BNSF. We interpret Behm’s argument to be that the
court erred in ruling the proposed taking was for a
public use.
[¶8] The Century Code authorizes exercise of eminent
domain for the following public uses:
Oil, gas, coal, and carbon dioxide pipelines and
works and plants for supplying or conducting
gas, oil, coal, carbon dioxide, heat, refrigeration,
or power for the use of any county, city, or the
inhabitants thereof, together with lands,
buildings, and all other improvements in or upon

App. 8
which to erect, install, place, maintain, use, or
operate pumps, stations, tanks, and other
machinery or apparatus, and buildings, works,
and plants for the purpose of generating,
refining, regulating, compressing, transmitting,
or distributing the same, or necessary for the
proper development and control of such gas, oil,
coal, carbon dioxide, heat, refrigeration, or
power, either at the time of the taking of said
property or for the future proper development
and control thereof.
N.D.C.C. § 32-15-02(10) (emphasis added); see also
N.D.C.C. § 32-15-02(4) (including as “public uses” both
“railroads” and “pipes for public transportation”).
[¶9] Where a property owner contests “public use”
under N.D.C.C. ch. 32-15, “there is a presumption a use
is public when the Legislature has declared it to be and
we treat the Legislature’s decision with the deference
due a coordinate branch of government.” City of
Medora v. Golberg, 1997 ND 190, ¶ 8, 569 N.W.2d 257.
Nevertheless, “the ultimate decision regarding whether
a proposed use of property is, in fact, a public use is a
judicial question.” Id. “Private property may not be
taken for the use of, or ownership by, any private
individual or entity, unless that property is necessary
for conducting a common carrier or utility business.”
N.D.C.C. § 32-15-01(2). Where, as here, eminent
domain is exercised by a utility business,
“[c]ondemnation for service to a single industrial
customer does not forestall a finding that the taking is
for a public use.” United States ex rel. Tenn. Valley
Auth. v. An Easement and Right-of-Way Over 1.8 Acres

App. 9
of Land, More or Less, in Maury Cty., Tenn., 682 F.
Supp. 353, 358 (M.D. Tenn. 1988); see also Carolina
Tel. and Tel. Co. v. McLeod, 364 S.E.2d 399, 401 (N.C.
1988); Dyer v. Tex. Elec. Serv. Co., 680 S.W.2d 883, 885
(Tex. Ct. App. 1984); 2A J. Sackman, Nichols on
Eminent Domain § 7.05[4][a] (3rd ed. 2018).
[¶10] MDU, the condemnor, and BNSF, the customer
it intends to serve, are both “a common carrier or
utility business.” N.D.C.C. § 32-15-01(2). It is only
MDU’s use of the easement to pipe gas, not that of its
customer BNSF to heat its switch with the gas, that is
relevant to the public use determination here. MDU’s
proposed pipeline to supply natural gas to BNSF for
the purpose of heating the railroad switch is for a
public use because MDU is a public utility, even though
the portion of the pipeline at issue here is intended to
serve only a single customer. The district court
correctly concluded the “proposed pipeline is . . . a use
authorized by Section 32-15-02, NDCC.”
B
[¶11] MDU argues the district court erred in ruling the
proposed taking of Behm’s property was not necessary
for the public use but was of “mere convenience to
MDU.” Before property may be taken for a use
authorized by law, “it must appear . . . [t]hat the taking
is necessary to such use.” N.D.C.C. § 32-15-05(2);
N.D.C.C. § 32-15-01(2) (“Private property may not be
taken for the use of, or ownership by, any private
individual or entity, unless that property is necessary
for conducting a common carrier or utility business.”).

App. 10
[¶12] In support of its decision, the district court relied
on an 1883 California Supreme Court decision, Spring
Valley Water-Works v. San Mateo Water-Works, 28 P.
447 (Cal. 1883), in which the court affirmed a decision
refusing to allow a water corporation to condemn 28
acres of land:
Private property, contiguously situated to the
works of a corporation, may be very convenient
for its corporate purpose, and the acquisition of
the same might add to the wealth of the
corporation by enhancing the value of the
property which it has in hand, and yet not be
reasonably necessary to the corporation in the
discharge of its duty to the public. “For public
uses the government has the right to exercise its
power of eminent domain and take private
property, giving just compensation; but for
public convenience it has not. A public
convenience is not such a necessity as authorizes
the exercise of the right of eminent domain. The
taking of private property for public uses is in
derogation of private right, and in hostility to
the ordinary control of the citizen over his
estate, and statutes authorizing its
condemnation are not to be extended by
inference or implication.”
Id. at 449. Here, the district court reasoned that no
necessity was shown because a pipeline crossing
Behm’s property would only serve the convenience of
MDU, which could select an alternative route for the
pipeline, and the convenience of BNSF, which could
continue to heat its railroad switch with propane.

App. 11
[¶13] The district court’s analysis of the necessity of the
public use is inconsistent with North Dakota law.
Unlike in Spring Valley Water-Works, the easement
sought by MDU is not a taking for “mere convenience.”
In Materi, 247 N.W.2d at 671-72, we held that a
showing of customer convenience in uninterrupted
electric service and the condemnor’s convenience and
safety in construction and maintenance was sufficient
to render reasonable a conclusion in favor of a taking’s
necessity. In Spring Valley Water-Works the court
found it relevant to the necessity analysis “that it was
entirely practicable for the plaintiff to construct on its
own land, just above the land of defendant, the
improvement for which it seeks to condemn the
defendant’s land.” 28 P. at 450. In contrast, MDU does
not own adjacent land on which it could construct a
pipeline. We have held that “a taking is not
objectionable merely because some other location might
have been made or some other property obtained that
would have been as suitable for the purpose.” Brandt,
2018 ND 26, ¶ 11, 905 N.W.2d 764 (quoting Wiese, 265
N.W.2d at 700) (emphasis added).
[¶14] A “court’s review of public necessity is limited to
the question of whether the taking of the particular
property sought to be condemned is reasonably suitable
and usable for the authorized public use.” Brandt, 2018
ND 26, ¶ 11, 905 N.W.2d 764 (quoting Wiese, 265
N.W.2d at 700). In C-K, Inc., 512 N.W.2d at 714, n.2,
we said:
While we have said before that “landowner[s]
may not object merely because some other
location might have been made or some other

App. 12
property obtained that would have been as
suitable for the purpose,” KEM, 247 N.W.2d at
671, citing to Otter Tail Power Co. v. Malme, 92
N.W.2d 514, 521 (N.D. 1958) (emphasis ours),
we have not held that this proposition stands
when the property chosen for the route is less
suitable. In light of the growing body of case law
in the area of electromagnetic fields, see 8A
Nichols, Eminent Domain ch. 26 (3d ed.),
Landowners in this case may have a valid
argument that alternate routes benefit the
public with less private injury.
[¶15] Behm proposed two alternative routes for the
pipeline. The first would run through BNSF’s current
east-west railroad easement. The second would run
along a north-south section line right of way adjacent
to the route selected by MDU. MDU presented evidence
that the first alternative route would add 18,000 feet of
pipeline to the project at an additional cost of
$1,200,000. The second alternative route would result
in MDU’s easement being subordinate to the public’s
section line right-of-way easement with MDU being
forced to accommodate at its expense any conflicts that
might arise. We have acknowledged it is reasonable for
a condemnor to consider possible future development in
determining whether the property sought to be
condemned is reasonably suitable for the project.
Malme, 92 N.W.2d at 522 (“Experience had
demonstrated that the location of the line far enough in
on the land of the owner to avoid the necessity of
moving the line in case of widening or the relocation of
a road or highway was advantageous.”). The
determination of necessity must always balance the

App. 13
burden on the affected landowner and the benefit of the
public use. A risk of future development or conflict with
prior easements is one factor that may be considered.
Although the particular property sought to be
condemned “must be located in the manner which will
be compatible with the greatest public benefit and the
least private injury,” N.D.C.C. § 32-15-06, Behm has
not demonstrated how MDU erred in weighing those
interests.
[¶16] The district court’s belief that the pipeline was
unnecessary because BNSF could continue to heat the
railroad switch with propane erroneously focuses on
the customer’s necessity rather than the public utility’s
necessity. Whether a project is necessary at all,
including the “condemning authority’s determination to
exercise the power of eminent domain for an authorized
public use[,] is a legislative question which is not
subject to judicial review.” Brandt, 2018 ND 26, ¶ 12,
905 N.W.2d 764. The necessity inquiry under N.D.C.C.
§ 32-15-05(2) turns on whether the particular property
proposed to be taken is necessary for the public use, not
whether the authorized public use is itself necessary.
Section 49-04-01, N.D.C.C., provides:
Every public utility shall furnish, provide,
and maintain such service, instrumentalities,
equipment, and facilities as shall promote the
safety, health, comfort, and convenience of its
patrons, employees, and the public, and as shall
be in all respects adequate, convenient, just, and
reasonable, and without any unjust
discrimination or preference.

App. 14
The court’s consideration of BNSF’s preference for gas
by pipeline to heat its railroad switch misapplied the
law. It is the necessity of MDU, not that of BNSF that
is the proper consideration. To the extent that we have
considered the members of the public served by the
condemnor’s proposed public use, we have said
“convenience to the public becomes a necessity for the
board of education in establishing a junior high school.”
Bd. of Educ. of City of Minot, 70 N.W.2d at 906.
[¶17] Ultimately, it appears the district court
substituted its judgment for that of the condemning
authority. “In the absence of bad faith, gross abuse of
discretion, or fraud by the condemning authority in its
determination that the property sought is necessary for
the authorized use and is pursuant to specific statutory
authority, such determination should not be disturbed
by the courts.” Brandt, 2018 ND 26, ¶ 11, 905 N.W.2d
764 (quoting Wiese, 265 N.W.2d at 700). Behm did not
establish that MDU acted in bad faith, grossly abused
its discretion, or committed fraud in determining
whether its chosen route across Behm’s property was
reasonably suitable in terms of the greatest public
benefit and the least private injury.
[¶18] We conclude the district court erred in ruling
MDU’s proposed taking was not necessary for a public
use.
III
[¶19] Behm lists ten issues in his cross-appeal but does
not specifically address any of them in his brief. We do
not address inadequately briefed issues. See, e.g., State
v. Nice, 2019 ND 73, ¶ 11, 924 N.W.2d 102. We reverse

App. 15
the judgment and remand for trial on eminent domain
damages to be awarded to Behm.
[¶20] Jerod E. Tufte
Jon J. Jensen
Carol Ronning Kapsner, S.J.
Daniel J. Crothers, Acting C.J.
[¶21] The Honorable Carol Ronning Kapsner,
Surrogate Judge, sitting in place of VandeWalle, C.J.,
disqualified. The Honorable Lisa Fair McEvers
disqualified herself subsequent to oral argument and
did not participate in this decision.

App. 16

APPENDIX B
IN THE SUPREME COURT
STATE OF NORTH DAKOTA
Supreme Court No. 20180321
Ward County Case No. 2016-CV-01678
[Filed June 7, 2019]
____________________________________________
Montana-Dakota Utilities Co., a
Division of MDU Resources Group, Inc.,
n/k/a Montana-Dakota Utilities Co., a
Subsidiary of MDU Resources Group, Inc.,
Plaintiff, Appellant, and Cross-Appellee

)
)
)
)
)
)
v.
)
)
Lavern Behm,
)
Defendant, Appellee, and Cross-Appellant
)
____________________________________________ )
Appeal from the district court for Ward County.
JUDGMENT
[¶1] This appeal having been heard by the Court at the
February 2019 Term before:
[¶2] Acting Chief Justice Daniel J. Crothers, Justice
Jerod E. Tufte, Justice Jon J. Jensen, and Surrogate
Judge Carol Ronning Kapsner, sitting in place of Chief
Justice Gerald W. VandeWalle. Justice Lisa Fair

App. 17
McEvers disqualified herself subsequent to oral
argument and did not particpate in the decision.
[¶3] and the Court having considered the appeal, it is
ORDERED AND ADJUDGED that the judgment of the
district court is REVERSED and REMANDED for
further proceedings consistent with the opinion.
[¶4] IT IS FURTHER ORDERED AND ADJUDGED
that Montana-Dakota Utilities Co., a Division of MDU
Resources Group, Inc., n/k/a Montana-Dakota Utilities
Co., a Subsidiary of MDU Resources Group, Inc., have
and recover from Lavern Behm costs and
disbursements on this appeal wider Rule 39,
N.D.R.App.P., to be taxed and allowed in the court
below.
[¶5] This judgment, together with the opinion of the
Court filed this date, constitutes the mandate of the
Supreme Court on the date it is issued to the district
court under N.D.R.App.P. 40.
Dated: May 16, 2019
By the Court:
/s/
Acting Chief Justice
[SEAL]
ATTEST:
/s/ Penny Miller
Clerk

App. 18

APPENDIX C
STATE OF NORTH DAKOTA
COUNTY OF WARD
IN DISTRICT COURT
NORTH CENTRAL JUDICIAL DISTRICT
CASE NO. 51-2016-CV-01678
[Filed July 20, 2018]
______________________________________
Montana-Dakota Utilities Co., a
)
Division of MDU Resources Group, Inc., )
)
Plaintiff,
)
)
vs.
)
)
Lavern Behm,
)
)
Defendant.
)
______________________________________ )
JUDGMENT
Based on the Order to Dismiss with Prejudice signed by
the Honorable Gary H. Lee dated May 29, 2018,
Docket No. 65, IT IS HEREBY ORDERED AND
ADJUDGED:
¶1 The above action is one for eminent domain by a
public utility.

App. 19
¶2 The plaintiff, Montana-Dakota Utilities Co., a
Division of MDU Resources Group, Inc., hereafter
MDU, seeks to acquire an easement across the
property of the defendant, Lavern Behm, to construct
a natural gas pipeline. The Court bifurcated the case to
first determine the necessity of the taking, and if
necessity is established a second hearing would be held
to determine damages.
¶3 The Court finds that MDU has failed to show a
necessity for this taking, and the action is
DISMISSED.
¶4 A trial was held on the necessity of the proposed
taking on April 17, 2018, in the District Court, North
Central Judicial District, Ward County, Minot, North
Dakota. The plaintiff, MDU, appeared and was
represented by counsel, Malcolm Brown, Bismarck,
North Dakota; the defendant, Lavern Behm, appeared
and was represented by counsel, Lynn Boughey,
Bismarck, North Dakota. Gary H. Lee, District Judge,
presided.
FACTS
¶5 Lavern Behm owns agricultural land in Ward
County, Section 16, 155 N., 84 W. The land is bounded
on the west side by a gravel township road, commonly
referred to as 128th Street Northwest. The land is cut,
generally east to west, by a Burlington Northern Santa
Fe railroad right-of-way. Along the southern edge of
the property MDU maintains a pipeline running
generally east to west.
¶6 Burlington Northern Santa Fe maintains and
operates a switch on its-right-of-way. In order to keep

App. 20
the switch operating in the winter months, Burlington
Northern Santa Fe must keep the switch heated so that
it is free of ice and snow. Presently, this is done by a
propane heater. Propane tanks are located near the
property. The propane tanks need to be filled and
serviced periodically.
¶7 To obviate the continued need to service and fill the
propane tanks MDU proposes to place a buried pipeline
of “4 inch poly and 4 inch steel” from existing pipeline
at the southern border of the property. The pipeline
would run approximately 3000 feet, south to north,
from the existing MDU pipeline, to the site of the
Burlington Northern Santa Fe switches. The pipeline
would run entirely beneath property owned by Lavern
Behm.
¶8 Testimony and exhibits at trial demonstrate that
MDU has obtained all necessary permits and approvals
from State and federal governmental agencies for the
pipeline.
¶9 Through the exercise of its powers of eminent
domain, MDU proposes to take an easement and place
its pipeline on the land owned by Lavern Behm. Lavern
Behm objects to the taking.
ANALYSIS
¶10 Eminent domain is the right to take private
property for public use. Section 32-15-02 (1), NDCC.
Private property shall not be taken for the use of, or
ownership by, any private individual or entity, unless
the property is necessary for conducting a common
carrier or utility business. Article 1, Section 16, ND
Const.; and Section 32-15-01 (2), NDCC.

App. 21
¶11 MDU is a public utility which provides natural gas
and electric services to customers in a four state area,
including North Dakota. Montana-Dakota Utilities Co.,
v. Public Service Commission of the State of North
Dakota, 413 NW2d 308 (ND 1987).
¶12 Under Section 32-15-05, NDCC, before property
can be taken it must appear:
1. That the use to which it is to be applied is a
use authorized by law, and
2. That the taking is necessary to such use.
¶13 The public uses for which the power of eminent
domain may be exercised are listed in Section 32-15-02,
NDCC. Subsection 4 of that section provides:
Subject to the provisions of this chapter, the
right of eminent domain may be exercised in
behalf of any of the following public uses:
Wharves, docks, piers, chutes, booms, ferries,
bridges, toll roads, by roads, plank and turnpike
roads, railroads and street railways, electric
light plants and power transmission lines and
canals, ditches, flumes, aqueducts, and pipes for
public transportation, supplying mines and
irrigating, draining, and reclaiming lands.
¶14 The purpose of the proposed pipeline in this case is
to carry natural gas to heat the Burlington Northern
Santa Fe switch. The proposed pipeline is, therefor, a
use authorized by Section 32-15-02, NDCC.
¶15 The inquiry under Section 32-15-05, NDCC, does
not, however, stop with a determination that a

App. 22
proposed taking is for a public use. The Section also
requires that a taking be necessary for the public use.
¶16 The rule in North Dakota regarding the question
of necessity derives from the 1896 case, Bigelow v.
Draper, 6 ND 152, 69 NW 570 (1896). In that case, the
North Dakota Supreme Court “determined that the
legislature had seen fit to take it out of the power of the
person or corporation to settle the question of necessity,
and to trust the determination of the issue to the
judicial branch of government.” Later, in the case of
Otter Tail Power C. v. Malme, 92 NW2d 514, (ND
19518), the North Dakota Supreme Court wrote: “. . . it
is nevertheless true that much latitude is given to the
corporation vested with the right of acquiring property
by eminent domain to determine the extent of the
property necessary to be taken.” Malme, 92 NW2d at
521. The North Dakota Supreme Court further stated
that a corporation vested with a right of acquiring
property for a public use is also entitled to the some
latitude in determining the selection and location of the
route for the proposed easement. Where the
corporation presents evidence showing the necessity for
the taking of property for its transmission lines, the
evidence indicates that the corporation vested with the
power exercised good faith and used its best judgment
in the selection of the route and the easement sought to
be taken. Finally, however, the selection of the route
must be compatible with the greatest public benefit
and the least private injury Malme, 92 NW2d at 522.
¶17 When contested, necessity is found unless the
condemner acted arbitrarily, capriciously, in bad faith,
or fraudulently. Central Power Electric Cooperative,

App. 23
Inc. v. K-C, Inc., 512 NW2d 711 (ND 1994). These
determinations are made by looking at whether the
route selected is compatible with the greatest public
benefit in the least private injury. KEM Electric
Cooperative, Inc. v. Materi, 247 NW2d 668, (ND 1976).
¶18 The Court believes, however, that necessity cannot
mean mere convenience. Although a very old authority,
the Court notes the case of Spring Valley Waterworks
v. San Mateo Waterworks, 64 Cal. 123, 28 P 447 (1883),
in which the California Supreme Court wrote:
Private property, contiguously situated to the
works of a corporation, may be very convenient
for its corporate purpose, and the acquisition of
the same might add to the wealth of the
corporation by enhancing the value of the
property which it has in hand, and yet not be
reasonably necessary to the corporation in the
discharge of its duty to the public. For public
uses the government has the right to exercise its
power of eminent domain and take private
property, giving just compensation; but for
public convenience it has not. A public
convenience is not such a necessity as authorizes
the exercise of the right of eminent domain. The
taking of private property for public uses is in
derogation of private right, and in hostility to
the ordinary control of the citizen over his
estate, and statutes authorizing its
condemnation are not to be extended by
inference or implication.
The California Supreme Court further wrote that the
word “necessity” has a great flexibility in its meaning.

App. 24
It can mean a taking that is a mere convenience, or a
taking that is indispensably necessary. The Court held
that a taking for mere convenience was not authorized.
As noted in North Dakota, necessity requires a
balancing of the greatest public good against the least
private injury. Central Power Electric Cooperative, Inc.
v. C-K. Inc., 512 NW2d 711 (ND 1994).
¶19 MDU’s proposal is to place a 3000 foot pipeline
beneath Lavern Behm’s property for the benefit of a
single user, Burlington Northern Santa Fe. While it is
certainly not subject to dispute that maintaining
railway switches is a necessity to the safe operations of
the railroad, the construction of this pipeline is not
necessary for this purpose. The current switch has
been, and can continue to be maintained through the
use of propane. The proposed pipeline serves only the
convenience of a single user, Burlington Northern
Santa Fe, while imposing a permanent restriction on
Lavern Behm’s use of his private property.
¶20 The location of the proposed pipeline further
stretches the meaning of necessity to mean mere
convenience to MDU. That convenience is not even a
present convenience, but one of a future, highly
speculative convenience.
¶21 128th Street Northwest runs down the section line.
As such, the standard 66 foot easement exists (33 feet
on each side of the section line). The proposed pipeline
easement starts at 33 feet from the section line, and is
10 feet wide. The pipeline runs down the middle of this
10 foot easement, a mere 38 feet from the section line,
and but 5 feet from the end of the statutory section line

App. 25
right-of-way. The pipeline is to run entirely beneath
Lavern Behm’s farmland.
¶ 22 MDU’s District Manager, Curtis Olson, testified
He stated he was somewhat involved in the project, but
had never even visited the site. He agreed that MDU
had only minimal discussions or negotiations with
Lavern Behm regarding the placement of the pipeline.
MDU did not attempt to place the pipeline within the
existing 33 foot section line right-of-way. Olson stated
that he had no discussions with local township officers
regarding any proposal to place the pipeline within the
33 foot section line right-of-way. Nor did he have any
discussions with township officials regarding any plans
for future changes or improvements to 128th Street
Northwest. The bottom line from this testimony
appears to be that MDU considered no other options
regarding the placement of the pipeline other than
across and beneath Lavern Behm’s property.
¶23 When questioned why the proposed route was
chosen (a mere 5 feet away from the existing section
line right-of-way) and not a possible route within the
33 foot section line right-of-way, Olson stated that if
128th Street Northwest was ever improved, MDU would
have to bear the cost of any movement or replacement
of the pipeline.
¶24 The proposed taking a Lavern Behm’s property for
the purpose of this pipeline is thus premised on a
project to benefit a single user, Burlington Northern
Santa Fe. It is to be placed on Lavern Behm’s property,
a mere 5 feet from the existing 33 foot section line right
away. That placement is deemed necessary by MDU
based on the speculative fear of a future event which

App. 26
may never occur, and even if it does, may not
necessitate the repair or replacement of the pipeline.
The necessity proposed by MDU is nothing more than
its own mere convenience.
¶25 Contrasted to this are Lavern Behm’s rights to own
his property and to farm or otherwise develop it as he
sees fit, without the burden of this easement. The
burden on Lavern Behm is immediate and permanent
as opposed to the uncertain and speculative necessity
argued by MDU.
¶26 The Court therefore finds that the proposed taking
and pipeline route is not compatible with the greatest
public benefit when weighed against the immediate
and permanent private injury to Lavern Behm.
¶27 The Court further finds that MDU’s decision is
arbitrary and capricious. A decision is arbitrary or
capricious if it is not the product of a rational mental
process by which the law and facts are relied upon and
considered together for achieving a reasoned and
reasonable interpretation. Grand Folks Housing
Authorities v. Grand Forks Board of County
Commissioners, 2010 ND 245, 793 NW2d 168.
¶28 In this case it appears as if MDU looked only at its
own convenience when it determined to take this
pipeline easement. The decision was based on the sheer
speculation of what might, or might not occur at some
unknown future date, and which might impose some
unknown and uncertain future cost. MDU did not
consider at all the private injury its pipeline would
impose on Lavern Behm and his property. This onesided analysis by MDU, resolving all uncertainties and

App. 27
speculations in its favor, and without consideration of
Lavern Behm’s rights of ownership is arbitrary and
capricious.
¶29 The issue of just compensation need not be
addressed. Based on the Order on attorney fees signed
by the Honorable Gary H. Lee on July 14, 2018,
Docket No. 86, IT IS HEREBY ORDERED AND
ADJUDGED:
¶30 The above action was one for eminent domain.
¶31 Following a bench trial, the Court issued its Order
denying the proposed taking. The Order was issued on
May 29, 2018.
¶32 The defendant, Lavern Behm, has made a motion
to recover attorney’s fees and costs incurred in
defending this action. The plaintiff, Montana-Dakota
Utilities Company, hereafter MDU, has responded to
the motion. Neither party requested a hearing in the
matter.
¶33 The Court hereby awards attorney’s fees in the
sum of$22,100, plus costs of $50, filing fee.
ANALYSIS
¶34 Section 32-15-32, NDCC, provides in part:
The court may in its discretion award to the
defendant reasonable actual or statutory costs or
both, which may include reasonable attorney’s
fees for all judicial proceedings.

App. 28
Lavern Behm, as the defendant in this action, is
entitled to the recovery of his attorney’s fees and costs
pursuant to this Section.
¶35 The factors which the Court may consider when
making an award of attorney’s fees in an eminent
domain proceeding are found in City of Bismarck v.
Thom, 261 NW2d 640 (ND 1977); and North Dakota
Department of Transportation v. Rosie Glow, LLC,
2018 ND 123,911 NW2d 334. Both cases make clear
that the predominant factors for determining
reasonable attorney’s fees are the number of hours
spent, and the rate per hour charged for those fees. The
hourly rate may be adjusted upwards or downwards
based on objective evaluation of the complexity and
novelty of the litigation, the degree of skill displayed by
the lawyer, customary fees charged in the area, and
other factors. All factors must be considered, and no
single factor is determinative.
TIME SPENT
¶36 Attorney Lynn Boughey, counsel for Lavern Behm,
has submitted three billing statements which he
presented to his client during the course of this
litigation. The statements are broken down by date,
followed by a brief description of the work performed,
and lastly the amount of time spent on the task. The
statements are reasonably detailed, and provide the
Court with a fairly clear picture of the services
rendered, and the time spent.
¶37 MDU does not take serious issue with the work or
the billing statements as presented. The Court

App. 29
however, will do its own independent review of the
statements to determine if they are reasonable.
¶38 At the outset, most of the itemizations appear to be
reasonable, and related to the preparation of the case
for trial. The itemizations include conferences with the
client, drafting pleadings, reviewing applicable law,
consultations with opposing counsel, and other efforts
reasonably necessary to move the case forward. The
Court does not note any item which might appear to
have required an unreasonably excessive amount of
time.
¶39 There are, however, a number of entries which the
Court will disallow.
¶40 Entries 10-4-16, and 10-5-16, involve contacts
between attorney Boughey and Robert Hale. Robert
Hale is a total stranger to these proceedings. Further,
the contacts appear to have taken place before attorney
Boughey had any contact with Lavern Behm. Contacts
between attorney Boughey and a third person stranger
to this litigation will not be allowed. .3 hours.
¶41 Entry 10-10-16, involves a contact between
attorney Boughey and a Minot law firm. While not
entirely clear from the entry, it appears that Lavern
Behm may have either been a client of the Minot law
firm, or there was some question whether Lavern
Behm would be retaining the Minot firm or attorney
Boughey. Regardless, the contact between attorney
Boughey and the Minot law firm to determine
representation of Lavern Behm is not a legal service
advancing the cause. The entry is disallowed .5 hours.

App. 30
¶42 Entries 10-20, and 10-22, note communications
between attorney Boughey and his staff regarding the
payment of a retainer fee, and the deposit of that fee.
Keeping track of retainers is a mere office function and
is nothing more than part of an attorney’s overhead. It
does not constitute legal work.
¶43 Fees are not recoverable for clerical or secretarial
activities such as file review, file maintenance,
scheduling, or other routine matters. Youngblood v.
Youngblood, 91 So3d 190 (Ct of App., 2d Dist. Fla
2012). Work by support staff must be substantive.
Copying and other secretarial tasks are not recoverable
as attorney’s fees. Taylor v. the Chubb Group of
Insurance Companies, 1994 OK 47, 874 P2d 806.
Routine office work is deemed overhead, and should
already be reflected in a lawyer’s hourly rate. Hawaii
Ventures, LLC v. Otaka, Inc., 116 Hawaii 465, 173 P3d
1122 (2007). .2 hours or disallowed.
¶44 For the reasons stated above, entries for 10-31-16,
11-to-16, 11-10-16, 12-5- 16, 1-3-17, 3-14-17, 3-15-17, 411-17, 7-6-17, 12-3-17, and 4-3-18 likewise appear to be
mere ministerial activities involving staff emails,
routine filings, and other clerical or secretarial
activities. 1.4 hours are disallowed.
¶45 Attorney Boughey has billed four hours for travel
time. Generally, attorney travel costs and expenses
may not be taxed as costs. Braunberger v. Interstate
Engineering, 2000 ND 45,607 NW2d 904. Section 3215-32, NDCC, allows reasonable attorney’s fees for all
judicial proceedings. One does not perform legal
services when traveling. One is not engaged in a
judicial proceeding when traveling. Further, attorney

App. 31
Boughey knew from the outset that he was taking a
case beyond his home jurisdiction. He accepted the
responsibility for travel when he took on the case.
Regardless of any agreement attorney Boughey may
have had with Lavern Behm regarding these costs, it is
not appropriate to make MDU carry that burden and
pay for the extra time attorney Boughey assumed when
he agreed to take the case outside of his home
jurisdiction. The four hours of travel time, 4- 16-18, and
4-17-18, are disallowed.
¶46 After review of the billing statement submitted,
the Court disallows 6.4 hours.
¶47 Attorney Boughey has listed 74.4 hours. After the
adjustments made above, the Court will approve 68
hours as attorney Boughey’s reasonable time spent in
this action.
HOURLY RATES
¶48 The next step in the analysis is determine the
hourly rate for attorney Boughey. This rate may be
adjusted upwards or downwards depending upon the
applicability of the factors set forth in the Thom and
Rosie Glow decisions cited above.
Character of the Legal Services Rendered
¶49 Attorney Boughey was the sole attorney working
for Lavern Behm in this case. As a solo practitioner,
everything that was done to prepare this case for trial
was done by attorney Boughey. All pleadings, motions,
briefs, and other submissions to the Court were
handled by attorney Boughey. All Court appearances,
and the trial itself were handled exclusively by

App. 32
attorney Boughey. All contacts with opposing counsel,
the client, potential witnesses, and the Court had to be
done by attorney Boughey alone.
¶50 Attorney Boughey appears to have approached
these duties and tasks in a highly professional and
competent manner. The billing statements show that
he attended to the tasks in a cost-effective and efficient
fashion.
¶51 The services provided by attorney Boughey were
delivered with the highest level of professional skill.
This factor weighs in favor of increasing attorney
Boughey’s hourly rate.
Results Obtained
¶52 Justice Vogel wrote, in his dissent in Thom, that a
lawyer may spend a lifetime working for that one
magnificent hour. When that hour arrives he deserves
more than piecemeal compensation City of Bismarck v.
Thom, 261 NW2d 640 (ND 1977), J. Vogel, dissent.
While attorney Boughey may have had better days in
Court, and his one magnificent hour may not yet have
arrived, the result in this case would no doubt be
considered a good day for attorney Boughey and Lavern
Behm. The results obtained were positive and
substantial.
Complexity or Novelty of the Litigation
¶53 In most eminent domain cases the issue of
necessity never arises. Generally, the sole issue in an
eminent domain proceeding is just compensation for
the taking.

App. 33
¶54 In his brief in support of his motion for fees,
attorney Boughey cites to recent United States
Supreme Court authority to support his argument that
questioning the necessity of a taking, and standing up
to the often heavy-handed authority making the case
for an eminent domain taking, is a relatively new and
developing area of the law. The Court would tend to
agree. Indeed, the Court had to reach back more than
100 years to find an obscure California authority which
discussed a challenge to a private taking in any
meaningful fashion. (This may be more of a reflection
of the Court’s limited research ability than anything
else.)
¶55 Counsel for MDU relied upon North Dakota
authority in support of the taking. That authority
likewise was decades, if not a century old.
¶56 A challenge to the necessity of a taking may well
be a newly developing area of the law. There is
certainly a dearth of recent authority which stood out
to support Lavern Behm’s position. Attorney Boughey
made a strong and positive argument based on limited
to almost nonexistent legal authority. As President
Theodore Roosevelt once said, the credit goes to the
man in the arena; who spends himself in the worthy
cause; who at best knows in the end high achievement,
or at worst fails while daring; but, who is not numbered
among the timid souls who neither know victory, nor
defeat.
¶57 Attorney Boughey was willing to take on a cause
few have dared. Rather than simply focusing on just
compensation, he chose to fight the taking armed with
little legal authority, and not much more than Lavern

App. 34
Behm’s unwillingness to bend. Attorney Boughey, on
behalf of Lavern Behm, prevailed. All credit to the man
in the arena.
Customary Fees Charged in the Location
¶58 Attorney Boughey agreed to charge Lavern Behm
$250 per hour. This is not an excessive fee in this area
for an attorney with attorney Boughey’s years of
experience and reputation. The question is whether the
Court should raise that fee. As noted above, attorney
Boughey provided his legal services with the highest
degree of professionalism and competence. He worked
cost effectively and efficiently. He scored a total victory
for Lavern Behm in a somewhat novel and evolving
area law. When considering this, and the fees that
others are charging in this area, the Court believes
attorney Boughey is entitled to an increase in his
overall hourly rate.
¶59 Attorney Boughey argues that he should receive a
“Lodestar” increase of 50%. He billed his time at $250
per hour, but asked the Court to increase that to an
hourly rate of$375 (250x1.5).
¶60 MDU does not object to the $250 for our rate, but
suggest that no addition to that hourly rate is
necessary or appropriate.
¶61 There is some recent evidence which the Court will
take into account regarding the customary fees charged
in this region for eminent domain proceedings.
¶62 First, there is the North Dakota Department of
Transportation v. Rosie Glow LLC, 2018 ND 123,911
NW2d 334, decision cited by both parties. In that case,

App. 35
out-of-state attorneys from Oregon requested fees
based on an hourly rate of$300 per hour. The trial
court did not see fit to question that rate, but did
drastically reduce the number of hours approved for
counsel’s work. The North Dakota Supreme Court
reversed the trial court on the number of hours, but no
question was raised regarding the efficacy of the $300
per hour figure.
¶63 Irwin v. City of Minot, 51 2012 CV 691, see also,
Irwin v. City of Minot, 215 ND 60, 860 NW2d 849, was
an inverse condemnation action. At the conclusion of
the case Irwin’s counsel made a motion for attorney’s
fees. Counsel for Irwin, Minot attorney Richard P.
Olson, sought fees of$325 per hour. Judge Stacy J.
Louser reduced this rate to $275 per hour. She did so
for a number of reasons. First, attorney Olson is not a
litigator, nor is eminent domain his area of expertise.
Attorney Olson is a well-known and highly respected
banking and transactional attorney-not a litigator in
the field of eminent domain. Further, the case dragged
on for four years, required a trip to the North Dakota
Supreme Court, and in the end netted the Irwin’s only
$12,500 above the original offer. As Judge Louser
noted, this is far from a “strongvictory.”
¶64 Attorney Boughey enjoyed significantly greater
success in a substantially shorter period of time. His
fees for services should be at least equal to those of
attorney Olson under the circumstances.
¶65 In another matter, North Dakota Department of
Transportation v. Pennington, 31 2013 CV 94,
attorney’s fees were requested in an eminent domain
action. In that case, attorney Dennis Johnson, Watford

App. 36
City, filed an affidavit regarding customary fees.
Attorney Johnson stated that a fee of at least $300 per
hour was a customary and prevailing fee in Western
North Dakota for an eminent domain proceeding.
¶66 In that case, South Dakota attorney Mark
Meierhenry appeared for the landowner. Attorney
Meierhenry is a former Attorney General of South
Dakota. Attorney Meierhenry has appeared and argued
in the United States Supreme Court. He has broad
litigation and appellate experience. He is a nationally
recognized attorney in the field eminent domain.
Attorney Meierhenry billed his time at $360 per hour.
His partner, Clint Sargent, billed his time at $350 per
hour. The Court reduced both fees to $300 per hour,
based primarily upon the abysmal results obtained in
that case. A first trial ended in a mistrial. After a
second trial, the jury verdict was far below that which
was sought.
¶67 Attorney Boughey, who prevailed, should be at
least equal to these attorneys given the results of the
cases.
¶68 In another cause, North Dakota Department of
Transportation v. Stubstad, 31 2013 CV 105, attorneys
Meierhenry and Sargent were again counsel for the
landowner in an eminent domain proceeding. In that
case, the Court allowed attorney Meierhenry’s fees to
be charged at only $250 per hour. This was due to his
limited role in the litigation. However, attorney
Sargent’s fees were allowed at $325 per hour. This was
primarily due to a significantly better outcome in the
litigation.

App. 37
¶69 Attorney Boughey ought to be allowed an increase
in his fees due to the factors noted above, and which
would be further line with the fees charged in this area
by other attorneys in similar litigation. As the
prevailing party, and keeping in line with the
customary fees allowed in the area to a successful
litigant in an eminent domain proceeding, the Court
will allow an increase of attorney Boughey’s hourly rate
to $325 per hour.
¶70 Attorney’s fees of $22,100 are awarded ($325 X 68
hours).
¶71 Attorney’s fees, pursuant to Section 32-15-32,
NDCC, are allowed in the sum of$22,100.
¶72 Costs of$50, filing fee, are approved.
¶73 Counsel for Lavern Behm shall prepare the
appropriate Judgment for entry.
¶74 IT IS THEREFORE ORDERED:
¶75 [1.] The action by the [plaintiff], Montana-Dakota
Utilities Co.[.], is hereby DISMISSED, with prejudice
and with costs taxed and allowed according to law.
¶76 [2.] Plaintiff, Montana-Dakota Utilities Co., is
ordered to pay attorney fees in the amount of $22,100
and costs of $50 to Defendant Lavern Behm’s attorney
Lynn Boughey, for a total amount of $22,150. In the
event that MDU does not make payment within 21
days of entry of judgment, counsel for Lavern Behm is
authorized to either submit a monetary judgment that
will be entered by the clerk upon receipt or a motion to
compel payment.

App. 38
¶77 WITNESS the hand and seal of this Court, the
Honorable Gary H. Lee presiding, North Central
Judicial District, in the city of Minot, State of North
Dakota, on this 20th day of July, 2018, Clerk of the
District Court, County of Ward.
Signed: 7/20/2018 9:17:46 AM
/s/Darcy Duchsherer
Clerk of the District Court

App. 39

APPENDIX D
STATE OF NORTH DAKOTA
COUNTY OF WARD
IN DISTRICT COURT NORTH CENTRAL
JUDICIAL DISTRICT
Ward County Civil No. 51 2016 CV 1678
[Filed May 29, 2018]
_____________________________
Montana-Dakota Utilities Co., )
a Division of MDU Resources )
Group, Inc.,
)
)
Plaintiff,
)
)
v.
)
)
Lavern Behm,
)
)
Defendant.
)
_____________________________ )
ORDER
[1] The above action is one for eminent domain by a
public utility.
[2] The plaintiff, Montana-Dakota Utilities Co., a
Division of MDU Resources Group, Inc., hereafter
MDU, seeks to acquire an easement across the
property of the defendant, Lavern Behm, to construct
a natural gas pipeline. The Court bifurcated the case to

App. 40
first determine the necessity of the taking, and if
necessity is established a second hearing would be held
to determine damages.
[3] The Court finds that MDU has failed to show a
necessity for this taking, the action is DISMISSED.
[4] A trial was held on the necessity of the proposed
taking on April 17, 2018, in the District Court, North
Central Judicial District, Ward County, Minot, North
Dakota. The plaintiff, MDU, appeared and was
represented by counsel, Malcolm Brown, Bismarck,
North Dakota; the defendant, Lavern Behm, appeared
and was represented by counsel, Lynn Boughey,
Bismarck, North Dakota. Gary H. Lee, District Judge,
presided
FACTS
[5] Lavern Behm owns agricultural land in Ward
County, Section 16, 155 N., 84 W. The land is bounded
on the west side by a gravel township road, commonly
referred to as 128th Street Northwest. The land is cut,
generally east to west, by a Burlington Northern Santa
Fe railroad right-of-way. Along the southern edge of
the property MDU maintains a pipeline running
generally east to west.
[6] Burlington Northern Santa Fe maintains and
operates a switch on its right-of-way. In order to keep
the switch operating in the winter months, Burlington
Northern Santa Fe must keep the switch heated so that
it is free office and snow. Presently, this is done by a
propane heater. Propane tanks are located near the
property. The propane tanks need to be filled and
serviced periodically.

App. 41
[7] To obviate the continued need to service and fill the
propane tanks MDU proposes to place a buried pipeline
of “4 inch poly and 4 inch steel” from the existing
pipeline at the southern border of the property. The
pipeline would run approximately 3000 feet, south to
north, from the existing MDU pipeline, to the site of
the Burlington Northern Santa Fe switches. The
pipeline would run entirely beneath property owned by
Lavern Behm.
[8] Testimony and exhibits at trial demonstrate that
MDU has obtained all necessary permits and approvals
from State and federal governmental agencies for the
pipeline.
[9] Through the exercise of its powers of eminent
domain, MDU proposes to take an easement and place
its pipeline on the land owned by Lavern Behm. Lavern
Behm objects to the taking.
ANALYSIS
[10] Eminent domain is the right to take private
property for public use. Section 32-15-02 (1), NDCC.
Private property shall not be taken for the use of, or
ownership by, any private individual or entity, unless
the property is necessary for conducting a common
carrier or utility business. Article 1, Section 16, ND
Const.; and Section 32-15-01 (2), NDCC.
[11] MDU is a public utility which provides natural gas
and electric services to customers in a four state area,
including North Dakota. Montana-Dakota Utilities,
Co., v. Public Service Commission of the State of North
Dakota, 413 NW2d 308 (ND 1987).

App. 42
[12] Under Section 32-15-05, NDCC, before property
can be taken it must appear:
1. That the use to which it is to be applied is a use
authorized by law, and
2. That the taking is necessary to such use.
[13] The public uses for which the power of eminent
domain may be exercised are listed in Section 32-15-02,
NDCC. Subsection 4 of that section provides:
Subject to the provisions of this chapter, the
right of eminent domain may be exercised in
behalf of any of the following public uses:
Wharves, docks, piers, chutes, booms, ferries,
bridges, toll roads, by roads, plank and turnpike
roads, railroads and street railways, electric
light plants and power transmission lines and
canals, ditches, flumes, aqueducts, and pipes for
public transportation, supplying mines and
irrigating, draining, and reclaiming lands.
[14] The purpose of the proposed pipeline in this case
is to my natural gas to heat the Burlington Northern
Santa Fe switch. The proposed pipeline is, therefore, a
use authorized by Section 32-15-02, NDCC.
[15] The inquiry under Section 32-15-05, NDCC, does
not, however, stop with a determination that a
proposed taking is for a public use. The Section also
requires that a taking be necessary for the public use.
[16] The rule in North Dakota regarding the question
of necessity derives from the 18% case, Bigelow v.
Draper, 6 ND 152, 69 NW 570 (1896). In that case, the

App. 43
North Dakota Supreme Court “determined that the
legislature had seen fit to take it out of the power of the
person or corporation to settle the question of necessity,
and to trust the determination of the issue to the
judicial branch of government.” Later, in the case of
Otter Tail Power C., v. Malme, 92 NW2d 514, (ND
1958), the North Dakota Supreme Court wrote: “... it is
nevertheless true that much latitude is given to the
corporation vested with the right of acquiring property
by eminent domain to determine the extent of the
property necessary to be taken.” Malme, 92 NW2d at
521. The North Dakota Supreme Court further stated
that a corporation vested with a right of acquiring
property for a public use is also entitled to the some
latitude in determining the selection and location of the
route for the proposed easement. Where the
corporation presents evidence showing the necessity for
the taking of property for its transmission lines, the
evidence indicates that the corporation vested with the
power exercised good faith and used its best judgment
in the selection of the route and the easement sought to
be taken. Finally, however, the selection of the route
must be compatible with the greatest public benefit
and the least private injury. Malme, 92 NW2d at 522.
[17] When contested, necessity is found unless the
condemnor acted arbitrarily, capriciously, in bad faith,
or fraudulently. Central Power Electric Cooperative,
Inc. v. K-C, Inc., 512 NW2d 711 (ND 1994). These
determinations are made by looking at whether the
route selected is compatible with the greatest public
benefit in the least private injury. KEM Electric
Cooperative, Inc. v. Materi, 247 NW2d 668, (ND 1976).

App. 44
[18] The Court believes, however, that necessity cannot
mean mere convenience. Although a very old authority,
the Court notes the case of Spring Valley Waterworks
v. San Mateo Waterworks, 64 Cal. 123, 28 P 447 (1883),
in which the California Supreme Court wrote:
Private property, contiguously situated to the
works of a corporation, may be very convenient
for its corporate purpose, and the acquisition of
the same might add to the wealth of the
corporation by enhancing the value of the
property which it has in hand, and yet not be
reasonably necessary to the corporation in the
discharge of its duty to the public. For public
uses the government has the right to exercise its
power of eminent domain and take private
property, giving just compensation; but for
public convenience it has not. A public
convenience is not such a necessity as authorizes
the exercise of the right of eminent domain. The
taking of private property for pubic uses is in
derogation of private right, and in hostility to
the ordinary control of the citizen over his
estate, and statutes authorizing its
condemnation are not to be extended by
inference or implication.
The California Supreme Court further wrote that the
word “necessity” has a great flexibility in its meaning.
It can mean a taking that is a mere convenience, of a
taking that is indispensably necessary. The Court held
that a taking for mere convenience was not authorized.
As noted in North Dakota, necessity requires a
balancing of the greatest public good against the least

App. 45
private injury. Central Power Electric Cooperative, Inc.
v. C-K, Inc., 512 NW2d 711 (ND 1994).
[19] MDU’s proposal is to place a 3000 foot pipeline
beneath Lavern Behm’s property for the benefit of a
single user, Burlington Northern Santa Fe. While it is
certainly not subject to dispute that maintaining
railway switches is a necessity to the safe operations of
the railroad, the construction of this pipeline is not
necessary for this purpose. The current switch has
been, and can continue to be maintained through the
use of propane. The proposed pipeline serves only the
convenience of a single user, Burlington Northern
Santa Fe, while imposing a permanent restriction on
Lavern Behm’s use of his private property.
[20] The location of the proposed pipeline further
stretches the meaning of necessity to mean mere
convenience to MDU. That convenience is not even a
present convenience, but one of a future, highly
speculative convenience.
[21] 128th Street Northwest runs down the section line.
As such, the standard 66 foot easement exists (33 feet
on each side of the section line). The proposed pipeline
easement starts at 33 feet from the section line, and is
10 feet wide. The pipeline runs down the middle of this
10 foot easement, a mere 38 feet from the section line,
and but 5 feet from the end of the statutory section line
right-of-way. The pipeline is to run entirely beneath
Lavern Behm’s farmland.
[22] MDU’s District Manager, Curtis Olson, testified.
He stated he was somewhat involved in the project, but
had never even visited the site. He agreed that MDU

App. 46
had only minimal discussions or negotiations with
Lavern Behm regarding the placement of the pipeline.
MDU did not attempt to place the pipeline within the
existing 33 foot section line right-of-way. Olson stated
that he had no discussions with local township officers
regarding any proposal to place the pipeline within the
33 foot section line right-of-way. Nor did he have any
discussions with township officials regarding any plans
for future changes or improvements to 128th Street
Northwest. The bottom line from this testimony
appears to be that MDU considered no other options
regarding the placement of the pipeline other than
across and beneath Lavern Behm’s property.
[23] When questioned why the proposed route was
chosen (a mere 5 feet away from the existing section
line right-of-way) and not a possible route within the
33 foot section line right-of-way, Olson stated that if
128th Street Northwest was ever improved, MDU
would have to bear the cost of any movement or
replacement of the pipeline.
[24] The proposed taking a Lavern Behm’s property for
the purpose of this pipeline is thus premised on a
project to benefit a single user, Burlington Northern
Santa Fe. It is to be placed on Lavern Behm’s property,
a mere 5 feet from the existing 33 foot section line right
away. That placement is deemed necessary by MDU
based on the speculative fear of a future event which
may never occur, and even if it does, may not
necessitate the repair or replacement of the pipeline.
The necessity proposed by MDU is nothing more than
its own mere convenience.

App. 47
[25] Contrasted to this are Lavern Behm’s rights to
own his property and to farm or otherwise develop it as
he sees fit, without the burden of this easement The
burden on Lavern Behm is immediate and permanent
as opposed to the uncertain and speculative necessity
argued by MDU.
[26] The Court therefore finds that the proposed taking
and pipeline route is not compatible with the greatest
public benefit when weighed against the immediate
and permanent private injury to Lavern Boehm.
[27] The Court further finds that MDU’s decision is
arbitrary and capricious. A decision is arbitrary or
capricious if it is not the product of a rational mental
process by which the law and facts are relied upon and
considered together for achieving a reasoned and
reasonable interpretation. Grand Forks Housing
Authorities v. Grand Forks Board of County
Commissioners, 2010 ND 245, 793 NW2d 168.
[28] In this case it appears as if MDU looked only at its
own convenience when it determined to take this
pipeline easement. The decision was based on the sheer
speculation of what might, or might not occur at some
unknown future date, and which might impose some
unknown and uncertain future cost. MDU did not
consider at all the private injury its pipeline would
impose on Lavern Behm and his property. This onesided analysis by MDU, resolving all uncertainties and
speculations in its favor, and without consideration of
Lavern Behm’s rights of ownership is arbitrary and
capricious.

App. 48
[29] The issue of just compensation need not be
addressed.
[30] IT IS THEREFORE ORDERED:
[31] The action by the plaintiffs, Montana-Dakota
Utilities Co. et al., is hereby DISMISSED, with
prejudice and with costs taxed and allowed according
to law.
[32] Counsel for Lavern Behm shall prepare the
necessary Judgment.
[33] May 29, 2018
/s/Gary H. Lee
[34] H. Lee, District Judge

App. 49

APPENDIX E
STATE OF NORTH DAKOTA
COUNTY OF WARD
IN DISTRICT COURT NORTH CENTRAL
JUDICIAL DISTRICT
Ward County Civil No. 51 2016 CV 1678
[December 14, 2017]
_____________________________
Montana-Dakota Utilities Co., )
a Division of MDU Resources )
Group, Inc.,
)
)
Plaintiff,
)
)
v.
)
)
Lavern Behm,
)
)
Defendant.
)
_____________________________ )
ORDER
[1] The above action is one for eminent domain.
[2] Both parties have made cross-motions for summary
judgment. Lavern Behm has requested oral argument
on the motions.
[3] All motions are DENIED.

App. 50
REQUEST FOR HEARING
[4] Ordinarily, when a party requests a hearing on a
motion pursuant to Rule 3.2, NDROC, the Court must
hold a hearing. Gosbee v. Martinson, 2008 ND App. 10,
701 NW2d 411. In this case, and for the reasons
outlined below, the Court deems a hearing to be
unnecessary.
SUMMARY JUDGMENT
[5] The standards for granting summary judgment in
North Dakota are well known, and will not be restated
at length. However, summary judgment may be
granted pursuant to Rule 56, NDRCivPro, when there
are no material issues of law or fact, and a party is
entitled to judgment as a matter of law. As the North
Dakota Supreme Court has written many times,
summary judgment is a procedural device for promptly
resolving controversy on the merits if there are no
genuine issues of material fact or inferences that can
reasonably drawn from disputed facts, or if resolving
the factual disputes will not alter the result. Hallin v.
Lyngstad, 2013 ND 168, 837 NW2d 888.
[6] A party moving for summary judgment has the
initial burden of establishing that there are no genuine
issues of material fact, and the moving party is entitled
to judgment as a matter of law. Farmers Mutual
Insurance v. Associated Electric and Gas, 2007 ND 135,
737 NW2d 253. The evidence must be viewed in a light
most favorable to the party opposing summary
judgment A party opposing summary judgment must
be given the benefit of all reasonable inferences to be

App. 51
drawn from the evidence. Hasper v. Center Mutual
Insurance, 2006 ND 220, 723 NW2d 409.
[7] A party opposing summary judgment may not rely
upon his pleadings or unsupported conclusory
allegations. A party opposing summary judgment must
present competent admissible evidence, by affidavit or
otherwise, that will raise the issue of material fact.
Ward v. Bullis, 2008 ND 80, 748 NW2d 397. A party
opposing summary judgment must serve and file a
responsive pleading or other documents within 30 days.
Rule 56, NDRCivPro. A failure to respond to a motion
for summary judgment may subject the non-responding
party to entry of an adverse judgment if it is
appropriate to do so. Rice v. Chrysler Motors, 198
NW2d 247 (ND 1972).
FACTS
[8] The facts of this case are relatively straightforward
Lavern Behm owns real property. To the north side of
his property the Burlington Northern Santa Fe
Railroad has a right-of-way for its railroad BNSF
maintains a switch nearby. That switch needs to be
heated and kept free of snow and ice for safe
operations.
[9] In the past, BNSF kept the switch free of snow and
ice by use of a propane heater. The propane was
supplied from nearby tanks. The tanks required
frequent filling, or replacement and other maintenance.
[10] To the south side of Lavern Behm’s property, MDU
maintains a natural gas line.

App. 52
[11] MDU seeks to use the power of eminent domain to
run a natural gas line beneath the surface of Lavern
Behm’s real estate. The pipeline would provide BNSF
with a steady supply of natural gas to heat the switch,
thereby relieving BNSF of the need to maintain,
replace, or fill the nearby propane tanks.
[12] Lavern Behm objects to the taking.
[13] If the taking is to occur, Lavern Behm seeks
damages as appropriate.
EMINENT DOMAIN
[14] Eminent domain is governed by Chapter 32-15,
NDCC. It is aright to take private property for a public
use. Section 32-15-01, NDCC.
[15] Among the many purposes for which the power of
eminent domain may be used are:
Oil, gas, coal, and carbon dioxide pipelines and
works and plants for supplying or conducting
gas, oil, coal, carbon dioxide, heat, refrigeration,
or power for the use of any county, city, or the
inhabitants thereof, together with lands,
buildings, and all other improvements in or upon
which to erect, install, place, maintain, use or
operate pumps, stations, tanks, and other
machine or apparatus and buildings, works, and
plans for the purposes of generating, refining,
regulating, compressing, transmitting, or
distributing the same...
Section 32-15-02 (10), NDCC.

App. 53
[16] MDU is a common pipeline carrier regulated by
Chapter 49-19, NDCC. As a common pipeline carrier,
MDU has the power of eminent domain. Section 14-1912, NDCC.
[17] In general terms, there are two questions to be
asked in an eminent domain proceeding: first, is the
taking of private property for a public purpose
necessary; and second, if so, what is the appropriate
amount of compensation to be paid to the landowner?
[18] The second question, compensation, is always a
fact question for the jury to determine. City of Devils
Lake v. Davis, 480 NW2d 720, (ND 1992). The first
question, however, the necessity of the taking, is triable
to the Court alone, without a jury. Northern Pacific
Railway Company v. Morton County, 131 NW2d 557
(ND 1964).
[19] MDU asserts that because it is a common pipeline
carrier and has the power of eminent domain, and
presumably because it falls within the ambit of Section
32-15-02 (10), NDCC and Section 49-19-12, NDCC, it
may take the property of Lavern Behm. This is not the
law. Merely falling into one of the purposes set forth in
Section 32-15-02, NDCC, is insufficient to satisfy the
requirements that the use must be necessary and
public before property may be taken by eminent
domain. Where the existence or nonexistence of the
necessary public use is placed in issue, the issue
becomes a fact question for the Court to determine.
Square Butte Electric Co-op v. Hilken, 244 NW2d 519
(ND 1976).

App. 54
[20] Before property can be taken it must appear that
the use to which it is to be applied is a use authorized
by law, and that taking is a necessary use. Section 3215-05, NDCC. In making this determination no single
factor is dispositive. Rather, the Court may consider
the cumulative effect of the benefits, and whether that
cumulative effect is sufficient to find a public use.
Square Butte, 244 NW2d 519, Syllabus of the Court,
paragraph five.
[21] The first question, whether the taking serves a
necessary public purpose, involves an issue of material
fact which cannot be determined on the basis of the
present motions for summary judgment. The obvious
consequence of that is that neither party may be
granted a summary judgment. There is no reason for
the Court to hold a hearing to reach this conclusion.
[22] A trial to the Court will need to be set to determine
whether the taking of Lavern Behm’s property by MDU
through a power of eminent domain is necessary for a
public use.
[23] IT IS THEREFORE ORDERED:
[24] The cross-motions for summary judgment are
DENIED.
[25] The request for a hearing on the motions for
summary judgment is DENIED.
[26] The Court will bifurcate the trial in this matter.
The case will first be heard by the Court to determine
the necessity of the taking for public use. If it is
determined that the action should then go forward, a

App. 55
second trial, before a jury, shall be scheduled to
establish appropriate compensation.
[27] The pretrial conference presently scheduled for
December 26, 2017, 9:00 AM, shall remain on the
calendar, and shall be used as a scheduling conference
to set discovery deadlines and trial dates. Counsel may
appear at the scheduling conference by telephone.
[28] December 14, 2017
/s/Gary H. Lee
[29] Gary H. Lee, District Judge

App. 56

APPENDIX F
[SEAL]
State of North Dakota
DISTRICT COURT
NORTH CENTRAL JUDICIAL DISTRICT
Ward County Courthouse
315 3rd St SE PO Box 5005
Minot ND 58702-5005
PRESIDING JUDGE
GARY H. LEE
(701) 857-6637

JUDICIAL REFEREE
CONNIE S.
PORTSCHELLER
(701) 857-6645

DISTRICT JUDGES
DOUGLAS L. MATTSON DISTRICT COURT FAX
(701) 857-6649
(701) 857-6635
RICHARD L. HAGAR
(701) 857-6639

SCHEDULING
(701) 857-6628

TODD L. CRESAP
(701) 857-6692

UNIT COURT
ADMINISTRATOR
CAROLYN PROBST
(701) 857-6625

STACY J. LOUSER
(701) 857-6633

NOTICE OF TRIAL

App. 57
Parties:

Counsel:

MONTANA-DAKOTA
UTILITIES CO. ET AL.

MALCOLM H BROWN

vs.
LAVERN BEHM

LYNN M BOUGHEY

Case No. 51-2016-CV-01678
The Court Trial in the above matter is scheduled for:
Date: April 17, 2018
Time: 9:00 AM
Place: Ward County Courthouse, Minot, North Dakota
Judge: Gary Lee
Time Set Aside: One day
Dated this 12th day of January, 2018

/s/Shannon Beck
Shannon Beck
Calendar Control Clerk
cc: Above Counsel (E-Served)

App. 58

APPENDIX G
STATE OF NORTH DAKOTA
COUNTY OF WARD
IN DISTRICT COURT NORTH CENTRAL
JUDICIAL DISTRICT
Civil No. 5-2016-CV-01678
[Filed September 7, 2016]
_____________________________
Montana-Dakota Utilities Co., )
a Division of MDU Resources )
Group, Inc.,
)
)
Plaintiff,
)
)
vs.
)
)
Lavern Behm,
)
)
Defendant.
)
_____________________________ )
COMPLAINT
Plaintiff, for its Complaint against the Defendant,
alleges as follows:
1. Montana-Dakota Utilities Co., a Division of
MDU Resources Group, Inc., a natural gas and electric
utility company, pursuant to the provisions of Chapter
32-15, N.D.C.C., intends to exercise the right of

App. 59
eminent domain to acquire an easement over and
across the following described real property:
Pipeline Easement located in the NW¼ of
Section 16, Township 155 North, Range 84 West
of the 5th PM, Ward County, North Dakota,
described as follows: The East 10 feet of the
West 43 feet of that portion of said NW¼ lying
southerly of the Burlington Northern Santa Fe
Railroad right of way.
Temporary Construction Easement located
in the NW¼, of Section 16, Township 155 North,
Range 84 West of the 5th PM, Ward County,
North Dakota, described as follows: The East 30
feet of the West 73 feet of that portion of said
NW¼ lying southerly of the Burlington Northern
Santa Fe Railroad right of way.
See attached exhibit.
2. Defendant is the record title owner of the lands
to be subject of the easement.
3. Plaintiff intends to acquire said easement for the
purpose of constructing a natural gas pipeline upon the
lands of the Defendant referred to above, and to place,
construct, reconstruct, use, operate, repair, inspect,
maintain, remove and replace thereon a line or system
for the purpose of distributing natural gas which is a
utility use and a public use pursuant to the provisions
of Chapter 32-15, N.D.C.C.
3. The easement shall be for a term of 99 years,
unless sooner terminated by Plaintiff.

App. 60
4. The easement shall also include the following
rights in favor of the Plaintiff:
(a)

An easement 10 feet in width, being 5 feet
left, and 5 feet right of the center line as laid
out and/or surveyed, or as finally installed
through, over, under and across the tract of
land hereinafter described, for the purpose of
installing and constructing thereon, and
thereafter to operate, inspect, protect,
maintain, repair, increase the capacity of,
remove, replace and abandon in place, a gas
pipeline or lines, including without limitation
necessary pipes, equipment and fixtures,
upon the above described tract of land.

(b)

Defendant agrees not to build, create or
construct or permit to be built, created, or
constructed, an obstruction, building,
engineering works or other structures upon,
over, or under the above described tract of
land or that would interfere with said
pipeline or lines or Plaintiff’s rights
hereunder. Plaintiff shall have the right, but
not the obligation, to cut and clear trees and
shrubbery from the above described tract of
land.

(c)

Plaintiff, its successors and assigns, shall
have the right at all reasonable times of
ingress and egress to the above described
premises across adjacent, lands of Defendant,
his successors and assigns, at convenient
points for the enjoyment of the aforesaid
uses, rights, and privileges.

App. 61
(d)

Plaintiff hereby agrees that it will pay any
and all damages that may result to the crops,
fences, buildings and improvements on said
premises caused by constructing,
reconstructing, inspecting, protecting,
maintaining, repairing, increasing the
capacity of, operating or removing said
pipeline or lines. The damages, if not
mutually agreed upon may be determined by
three disinterested persons, one to be
selected by Plaintiff and one by Defendant.

WHEREFORE, Plaintiff prays that the Court
determine that Plaintiff has the right to acquire the
property described herein for a public use; that the use
by the Plaintiff of said property is a public use; that the
amount of just compensation due the Defendant for his
interest in the real property be determined; and that
the Plaintiff have such other relief as to the Court
seems just.
Dated this 7th day of September, 2016.
CROWLEY FLECK PLLP
Attorneys for Plaintiff
100 West Broadway Avenue, Suite 250
P.O. Box 2798
Bismarck, ND 58502-2798
Tel. 701-224-7522
By:

/s/Malcolm H. Brown
Malcolm H. Brown (#02842)
mbrown@crowlcvfleck.com

App. 62
Christopher K. LeCates (#07554)
clecates@crowleyfleck.com

App. 63
PIPELINE EASEMENT FOR MONTANA-DAKOTA
UTILITIES CO., LOCATED IN THE NORTHWEST
QUARTER (NW 1/4) OF SECTION 16, TOWNSHIP
155 NORTH, RANGE 84 WEST OF THE 5TH P.M.,
WARD COUNTY, NORTH DAKOTA.
***
[Fold-Out Exhibit, see next page]

App. 64

APPENDIX H
STATE OF NORTH DAKOTA
COUNTY OF WARD
IN DISTRICT COURT NORTH CENTRAL
JUDICIAL DISTRICT
Case No. 51-2016-CV-01678
[Filed October 25, 2016]
_____________________________
Montana-Dakota Utilities Co., )
a Division of MDU Resources )
Group, Inc.,
)
)
Plaintiff,
)
)
vs.
)
)
Lavern Behm,
)
)
Defendant.
)
_____________________________ )
ANSWER AND COUNTERCLAIM
¶ COME NOW THE DEFENDANT, Lavern Behm
(Vern), by and through his counsel of record, Lynn
Boughey, and for his Answer and Counterclaim to the
Complaint of Montana-Dakota Utilities Co., a Division
of MDU Resources, Group, Inc. (MDU), who alleges and
states to the Court as follows:

App. 65
¶2 ANSWER
¶3 As to Para. 1 of the Complaint in which MDU
identifies itself and states its intention to acquire an
easement through eminent domain over and across the
listed property, ADMITS that MDU is a company that
is attempting to use eminent domain to acquire the
easement over and across the listed property, but
DENIES that the taking and proposed easement
should be granted or occur.
¶4 As to Para. 2 of the Complaint in which MDU
asserts that Vern is the record title owner of the
property at issue, Vern ADMITS that he is the record
title owner of the property at issue.
¶5 As to Para. 3 of the Complaint in which MDU
asserts it that it intends to acquire the easement for
the purpose of a natural pipeline for the purpose of
distributing natural gas, Vern ADMITS that this is
indeed MDU’s intention, but DENIES that the taking
and proposed easement is for a valid public purpose
and is instead a taking by a private entity and not a
governmental entity.
¶6 As to MDU’s second Para. 3 of the Complaint
in which MDU asserts that the easement will last 99
years, Vern DENIES that the taking and proposed
easement should be granted or occur, or that the length
proposed should be allowed.
¶7 As to MDU’s Para. 4 subdivisions (a) and (b) of
the Complaint, in which MDU lists all of the
restrictions that the easement will place on Vern and
on his land, Vern DENIES that the taking and

App. 66
proposed easement should be granted or occur, or that
any of these restrictions should be allowed.
¶8 As to MDU’s Para. 4 subdivisions (c) of the
Complaint in which MDU lists Vern’s right of ingress
and egress across his adjacent lands at reasonable
times and at convenient points above the described
premises on his own land, Vern DENIES that the
taking and proposed easement should be granted or
occur, or that any of these restrictions should be
applied, and asserts that he should have no restrictions
to ingress, egress, or use of his land.
¶9 As to MDU’s Para. 4 subdivisions (d) of the
Complaint in which MDU asserts that it will pay any
and all damages that may result in construction and
other aspects of the pipeline, Vern ADMITS that MDU
should be responsible for any damage done to the land
(crops, fences, buildings, and improvements), Vern
ADMITS that MDU should be responsible for any and
all damages that may result in the placement of the
pipeline on his land, but Vern DENIES that the taking
and proposed easement should be granted or occur, or
that any of these damages should occur, and further
asserts that if any damages does occur, the value
should be determined by a jury, not three disinterested
persons.
¶10 Action Brought by Non-Governmental Entity
Vern specifically alleges that the power of eminent
domain should not be employed in this case because the
entity bringing the action is not a governmental entity
but instead a private entity using a governmental
power that should be used only by a governmental

App. 67
entity for purposes of public roads or infrastructure,
and not to the benefit of private persons or entities.
¶11 Proposed Use is Not a Public Use Vern
specifically alleges that the proposed use is not a public
use but is instead for the benefit of two private entities,
that is MDU and Burlington Northern Railroad, in
violation of ND CONST. Art. I, section 16, N.D.C.C.
Sections 32-15-01(1) and 32-15-04(3).
¶12 Proposed Easement is Not Necessary Due to
Alternative Viable Option – Use of Road Right of
Way Vern alleges that the use of the eminent domain
power cannot be applied here in that the proposed
easement is not necessary due to the fact that MDU
has an alternative viable option of placing the natural
gas line on the existing right of way along the road and
as such it is improper to use eminent domain against
Vern when it is not necessary, in violation of ND
CONST. Art. I, section 16, N.D.C.C. Sections 32-1501(2), 32-15-04(6), and 32-15-05(2).
¶13 Proposed Easement is Not Necessary – Use of
Propane Tanks Vern alleges that the use of the
eminent domain power cannot be applied here in that
the proposed easement is not necessary due to the fact
that MDU and Burlington Northern Railroad has an
alternative viable option of placing of using propane
tanks on the existing right of way along the rail road
tracks (which is exactly what has occurred on the other
side of the road) and as such it is improper to use
eminent domain against V ern when it is not necessary,
in violation of ND CONST. Art. I, section 16, N.D.C.C.
Sections 32-15-01(2), 32-15-04(6), and 32-15-05(2).

App. 68
¶14 Failure to Negotiate MDU has violated N.D.C.C.
Section 32-15-06.1 by failing to make every reasonable
and diligent effort to acquire property by negotiation or
to take the steps required under subdivisions 2, 3, and
4 of this statute, and as such the Complaint should be
dismissed.
¶15 COUNTERCLAIM
¶16 Damages and Just Compensation In the event
the easement or taking of the land occurs, Vern
requests just compensation and damages as allowed
under Chapter 32-15, and more specifically under
Section 32-15-22.
¶17 Award of Attorney Fees upon Taking of Land
Where the power of eminent domain is employed or
attempted under North Dakota state law, the Court
may award to the defendant reasonable attorney fees
under Section 32-15-32 – and reasonable attorney fees
are claimed by Vern in this matter.
¶18 Award of Attorney Fees if Action is
Dismissed or Easement Not Granted Where the
power of eminent domain is employed or attempted
under North Dakota state law, and the easement or
taking that is originally proposed is denied, not
granted, or the Complaint is dismissed by the Court,
then the defendant has the right to reasonable attorney
fees under Section 32-15-35 – and reasonable attorney
fees are claimed by Vern in this matter and reasonable
attorney fees are claimed by Vern in this matter.
¶19 Right to Jury Trial Where the power of eminent
domain is employed or attempted under North Dakota
state law, the person opposing the use of the power of

App. 69
eminent domain or the amount of damages has the
right to a jury trial as to all issues, including
1) whether the easement or taking is for a public
use;
2) whether the easement or taking is necessary;
3) whether the easement or taking is unnecessary
due to viable alternatives;
4) the amount of damages; and
5) the amount of the award of attorney fees.
Vern asserts the right to a jury trial and a decision by
a jury as to each of these issues under Section 32-15-13
and 32-15-22. In the event that the Court determines
that the right to jury applies only to the assessment of
damages, then Vern requests that the Court determine
items 1, 2, 3, and 5, above.
¶20 First Defense
¶21 Vern asserts that the complaint fails to state a
claim against defendant upon which relief can be
granted.
¶22 Second Defense
¶23 Vern asserts that there is a failure to join a party
under Rule 19, that is Burlington Northern Pacific
Railroad, or in the alternative that Burlington
Northern Pacific Railroad should be added as a party
under Rule 20 in that there is a question of law and
fact common to both the defendants and the plaintiff,
and that is whether the taking is necessary due to
viable alternatives to the taking.

App. 70
¶24 JURY TRIAL DEMANDED
¶25 WHEREFORE, Defendant Vern Behm requests
the following relief:
1. That the Complaint be dismissed and reasonable
attorney fees be awarded for failure to state a claim;
2. That the Court add any necessary or permissive
party to the action;
3. That the Court determine that MDU does not
have the right to acquire the property described in
the Complaint because the use of the property is not
for public use;
4. That the Complaint be dismissed and reasonable
attorney fees be awarded due to any of the
following:
a) action not brought by a governmental entity;
b) action not brought for a public purpose;\
c) action not necessary due to existing right of
way on adjacent road;
d) action not necessary due to option of using
propane tanks along existing right of way along
railway.
5. Award of just compensation for any easement or
taking.
6. Award of reasonable attorney fees.
7. If the use of the property is allowed, that the
amount of just compensation be determined by the

App. 71
appropriate entity, that is a jury or in the
alternative a Court if a jury is not allowed by law;
8. Award of pre-judgment and post-judgment
interest allowed by law;
9. Award of costs and disbursements; and
10. Any further relief granted by the Court in this
matter that the Court deems just.
¶26 Dated this 25th day of October, 2016.
/s/Lynn Boughey
Lynn Boughey (04046)
lynnboughey@midconetwork.com
Attorney for Lavern Behm
P.O. Box 836
Bismarck, ND 58502-0836
(701) 751-1485

App. 72

APPENDIX I
STATE OF NORTH DAKOTA
COUNTY OF WARD
IN DISTRICT COURT NORTH CENTRAL
JUDICIAL DISTRICT
Case No. 51-2016-CV-01678
[Filed November 9, 2016]
_____________________________
Montana-Dakota Utilities Co., )
a Division of MDU Resources )
Group, Inc.,
)
)
Plaintiff,
)
)
vs.
)
)
Lavern Behm,
)
)
Defendant.
)
_____________________________ )
REPLY TO COUNTERCLAIM
Plaintiff, for its reply to the Counterclaim of the
Defendant, as follows:
[¶1] Plaintiff denies each and every allegation of
Defendant’s Counterclaim as is hereinafter admitted,
qualified or explained.

App. 73
[¶2] Admits that the Defendant is entitled to
compensation as provided by the North Dakota
Constitution and North Dakota law, and admits that
the trial court has the discretion to award attorney’s
fees.
[¶3] Admits that the issue of just compensation
should be decided by a jury.
[¶4] Specifically denies that Burlington Northern
Pacific Railroad is a necessary party to the issues in
this case.
WHEREFORE, the Plaintiff prays that the issue of
just compensation be decided by the jury in this case,
that the Court determine that the Plaintiff is entitled
to the easement as requested in its Complaint, together
with such other relief as to the Court seems just.
Dated this 9th day of November, 2016.
CROWLEY FLECK PLLP
Attorneys for Plaintiff
100 West Broadway Avenue, Suite 250
P.O. Box 2798
Bismarck, ND 58502-2798
Tel. 701-224-7522
By: /s/ Malcolm H. Brown
Malcolm H. Brown (#02842)
mbrown@crowleyfleck.com
Christopher K. LeCates (#07554)
clecates@crowleyfleck.com

